WAIVEIF

Supreme Court, U.S.
FILED

JUL 0 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

20-1721

James A. Sawyer

Department of Child Support Services in al

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

C)

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Santa Cruz County Department of Child Support Services

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

e

I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

Jennevee H. de Guzman

Date:

7/7/21

Digitally signed by Jennevee H. de Guzman
Date: 2021.07.08 11:14:26 -0T00'

(Type or print) Name Jennevee H. de Guzman

0 Mr.

O Ms.

0 Mrs.

0 Miss

Firm

California Department of Justice, Office of the Attorney General

Address

1300 I Street, Suite 125

City & State

Sacramento, CA

Phone

4(916) 210-7893

Zip 94244-2550

Email Ijennevee.deguzman@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
James A. Sawyer, Petitioner
cc: Court of Appeal of California, Sixth Appellate District
Santa Cruz County Superior Court

DECLARATION OF SERVICE BY U.S. MAIL
Case Name:

No.:

James Sawyer v. Department of Child Support
Services in and for Ramsey County of Minnesota, et
al.
20-1721

I declare:
I am employed in the Office of the Attorney General, which is the office of a
member of the California State Bar, at which member's direction this service
is made. I am 18 years of age or older and not a party to this matter. I am
familiar with the business practice at the Office of the Attorney General for
collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence
placed in the internal mail collection system at the Office of the Attorney
General is deposited with the United States Postal Service with postage
thereon fully prepaid that same day in the ordinary course of business.
On July 9, 2021, I served the attached WAIVER mail collection system at the
Office of the Attorney General at 2550 Mariposa Mall, Room 5090, Fresno,
CA 93721, addressed as follows:
Superior Court of California
County of Santa Cruz
701 Ocean Street
Santa Cruz, CA 95060-4086

James A. Sawyer
5485 Ball Drive
Soquel, CA 95073
In pro per

Sixth Appellate District
Court of Appeal of the State of California
333 West Santa Clara Street, Suite 1060
San Jose, CA95113
I declare under penalty of perjury under the laws of the State of California
and the United States of America the foregoing is true and correct and that
this declaration was executed on July 9, 2021, at Fresno, California
Gabriel Vallejo
Declarant
SA2018103515
POS sawyer.docx

741 C7ct11rie.1., VallejoSignature

